No. 20-5643
IN THE SUPREME COURT OF THE UNITED STATES
_________________
LOUIS GENE WILLIAMS, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the MEMORANDUM FOR THE UNITED STATES IN OPPOSITION via email and by
first-class mail, postage prepaid, this 11TH day of December, 2020.
[See Attached Service List]

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 11, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-5643
WILLIAMS, LOUIS GENE
USA

JAMES MATTHEWS WRIGHT
500 S. TAYLOR
SUITE 110
AMARILLO, TX 79109

